Case 21-1099, Document 39, 06/08/2021, 3116215, Pagel of 2

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 8th day of June, two thousand and twenty-one,

Elizabeth Harding Weinstein,
Plaintiff - Appellant,
v.

Village of Briarcliff Manor, Briarcliff Police
Department, Justice Howard T. Code, Personally & in
his Official capacity as Justice of the Briarcliff Village
Court, Rori M. Zirman, Personally & in her Official
Capacity as Court Clerk, Philip E. Zegarelli, Personally
& in his Official Capacity as Village Manager, PO Cody
Wilkinson, Personally & in his Official Capacity as a
Police Officer, Lt. Dominick Bueti, Personally & in his
Official Capacity as a Police Officer, Sgt. Thomas
Nacke, Personally & in his Official Capacity as a Police
Officer, Det. Fred Galbraith, Personally & in his Official
Capacity as a Police Officer, Former Chief Donald
Gorey, Personally & in his Official Capacity as a Police
Officer, PO Gregory Campus, Personally & in his
Official Capacity as a Police Officer, Sgt. William
Bassett, Personally & in his Official Capacity as a Police
Officer, Maria Pascetta, Personally & in her Official
Capacity as Secretary to Village Manager, Mayor Steven
A. Vescio, Personally and in his Official Capacity as
Mayor of the Village of Briarcliff Manor, Edward E.
Midgley, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES, Peter E. Chatzky,
Personally and in his Official Capacity as member of
BOARD OF TRUSTEES, Kevin Hunt, Personally and in
his Official Capacity as member of BOARD OF
TRUSTEES, Sabine Werner, Personally and in his
Official Capacity as member of BOARD OF
TRUSTEES, Brian Stryker Weinstein, Marie Vitale,
Personally and her Official Capacity as a Court

ORDER
Docket Number: 21-1099

Case 21-1099, Document 54, 06/29/2021, 3128984, Pagel of 2

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 29th day of June, two thousand and twenty-one,

Elizabeth Harding Weinstein,
Plaintiff - Appellant,
v.
Village of Briarcliff Manor, Briarcliff Police
Department, Justice Howard T. Code, Personally & in
his Official capacity as Justice of the Briarcliff Village
Court, Rori M. Zirman, Personally & in her Official
Capacity as Court Clerk, Philip E. Zegarelli, Personally
& in his Official Capacity as Village Manager, PO Cody
Wilkinson, Personally & in his Official Capacity as a
Police Officer, Lt. Dominick Bueti, Personally & in his
Official Capacity as a Police Officer, Sgt. Thomas
Nacke, Personally & in his Official Capacity as a Police
Officer, Det. Fred Galbraith, Personally & in his Official
Capacity as a Police Officer, Former Chief Donald
Gorey, Personally & in his Official Capacity as a Police
Officer, PO Gregory Campus, Personally & in his
Official Capacity as a Police Officer, Sgt. William
Bassett, Personally & in his Official Capacity as a Police
Officer, Maria Pascetta, Personally & in her Official
Capacity as Secretary to Village Manager, Mayor Steven
A. Vescio, Personally and in his Official Capacity as
Mayor of the Village of Briarcliff Manor, Edward E.
Midgley, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES, Peter E. Chatzky,
Personally and in his Official Capacity as member of
BOARD OF TRUSTEES, Kevin Hunt, Personally and in
his Official Capacity as member of BOARD OF
TRUSTEES, Sabine Werner, Personally and in his
Official Capacity as member of BOARD OF
TRUSTEES, Brian Stryker Weinstein, Marie Vitale,
Personally and her Official Capacity as a Court

ORDER
Docket No. 21-1099

https ://ecf.ca2.uscourts .gov/n/beam/servlet/TransportRoom

21-1099 Docket

PACER fee: Exempt
General Docket
Court of Appeals, 2nd Circuit
Docketed: 04/26/2021
Termed: 07/08/2021

Court of Appeals Docket#: 21-1099
Nature of Suit: 3440 CIVIL RIGHTS-Other
Weinstein v. Village of Briarcliff Manor
Appeal From: SDNY (WHITE PLAINS)
Fee Status: Paid
Case Type Information:

1) Civil
2) Private
3)Originating Court Information:
District: 0208-7 : 21-CV-1996
Trial Judge: Cathy Seibel, U.S. District Judge
Date Filed: 03/08/2021
Date Order/Judgment EOD:
Date Order/Judgment:
04/22/2021
04/22/2021

Date NOA Filed:
04/26/2021

Date Rec'd COA:
04/26/2021

Prior Cases:
None
Current Cases:
None
Panel Assignment:

Not available

Elizabeth Harding Weinstein
Plaintiff - Appellant

Elizabeth Harding Weinstein, Direct: 646-261-7685
[NTC Pro Se]
180 River Road
Briarcliff Manor, NY 10510

Village of Briarcliff Manor
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
Silverman & Associates
#1102
445 Hamilton Avenue
White Plains, NY 10601

Briarcliff Police Department
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Justice Howard T. Code, Personally & in his Official capacity as
Justice of the Briarcliff Village Court
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Rori M. Zirman, Personally & in her Official Capacity as Court Clerk Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
Defendant - Appellee
[COR NTC Retained]
(see above)
Philip E. Zegarelli, Personally & in his Official Capacity as Village
Manager
Defendant - Appellee

1 of 8

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

7/8/2021, 9:32 AM

21-1099 Docket

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

PO Cody Wilkinson, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Lt. Dominick Bueti, Personally & in his Official Capacity as a Police
Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Sgt. Thomas Nacke, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Det. Fred Galbraith, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Former Chief Donald Gorey, Personally & in his Official Capacity as Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
a Police Officer
[COR NTC Retained]
Defendant - Appellee
(see above)

2 of 8

PO Gregory Campus, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Sgt. William Bassett, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Maria Pascetta, Personally & in her Official Capacity as Secretary
to Village Manager
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Mayor Steven A. Vescio, Personally and in his Official Capacity as
Mayor of the Village of Briarcliff Manor
Defendant - Appellee

Lewis R. Silverman, Senior Attorney ,
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Edward E. Midgley, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Peter E. Chatzky, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Kevin Hunt, Personally and in his Official Capacity as member of
BOARD OF TRUSTEES
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Sabine Werner, Personally and in his Official Capacity as member
of BOARD OF TRUSTEES
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Brian Stryker Weinstein
Defendant - Appellee

Brian S. Weinstein, Direct: 212-450-4972
[COR NTC Attorney, Pro se]
Davis Polk & Wardwell LLP

7/8/2021,9:32 AM

21-1099 Docket

https ://ecf.ca2 .uscourts .gov/n/beam/servlet/TransportRoom

New York
2844
450 Lexington Avenue
New York
New York, NY 10017
Marie Vitale, Personally and her Official Capacity as a Court
Appointed Attorney
Defendant - Appellee

Marie Vitale, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

Daniel Pozin, Personally and his Official Capacity as Attorney for
Briarcliff Manor
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

David Lauscher, Personally and in his Official Capacity as Assistant David H. Chen, Esq., Direct: 914-995-3616
District Attorney
[COR NTC Government]
Defendant - Appellee
Westchester County Attorney's Office
Suite 602
600 Michaelian Office Building
148 Martine Avenue
White Plains, NY 10601
Joyce Miller, Personally and in her Official Capacity as Assistant
District Attorney
Defendant - Appellee

David H. Chen, Esq., Direct: 914-995-3616
[COR NTC Government]
(see above)

Fred Green, Personally and in her Official Capacity as Assistant
District Attorney
Defendant - Appellee

David H. Chen, Esq., Direct: 914-995-3616
[COR NTC Government]
(see above)

John Doe 1-10
Defendant

3 of 8

7/8/2021,9:32 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1099 Docket

Elizabeth Harding Weinstein,
Plaintiff - Appellant,

v.
Village of Briarcliff Manor, Briarcliff Police Department, Justice Howard T. Code, Personally & in his Official capacity as Justice of the
Briarcliff Village Court, Rori M. Zirman, Personally & in her Official Capacity as Court Clerk, Philip E. Zegarelli, Personally & in his Official
Capacity as Village Manager, PO Cody Wilkinson, Personally & in his Official Capacity as a Police Officer, Lt. Dominick Bueti, Personally
& in his Official Capacity as a Police Officer, Sgt. Thomas Nacke, Personally & in his Official Capacity as a Police Officer, Det. Fred
Galbraith, Personally & in his Official Capacity as a Police Officer, Former Chief Donald Gorey, Personally & in his Official Capacity as a
Police Officer, PO Gregory Campus, Personally & in his Official Capacity as a Police Officer, Sgt. William Bassett, Personally & in his
Official Capacity as a Police Officer, Maria Pascetta, Personally & in her Official Capacity as Secretary to Village Manager, Mayor Steven
A. Vescio, Personally and in his Official Capacity as Mayor of the Village of Briarcliff Manor, Edward E. Midgley, Personally and in his
Official Capacity as member of BOARD OF TRUSTEES, Peter E. Chatzky, Personally and in his Official Capacity as member of BOARD
OF TRUSTEES, Kevin Hunt, Personally and in his Official Capacity as member of BOARD OF TRUSTEES, Sabine Werner, Personally
and in his Official Capacity as member of BOARD OF TRUSTEES, Brian Stryker Weinstein, Marie Vitale, Personally and her Official
Capacity as a Court Appointed Attorney, Daniel Pozin, Personally and his Official Capacity as Attorney for Briarcliff Manor, David
Lauscher, Personally and in his Official Capacity as Assistant District Attorney, Joyce Miller, Personally and in her Official Capacity as
Assistant District Attorney, Fred Green, Personally and in her Official Capacity as Assistant District Attorney,
Defendants - Appellees,
John Doe 1-10,
Defendants.

4 of 8

7/8/2021,9:32 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1099 Docket

04/26/2021

□ A
9 pg, 244.82 KB

04/26/2021

□ _2
2 pg, 123.36 KB

04/26/2021

□ _3
2 pg, 27.69 KB

04/26/2021

□ A

NOTICE OF CIVIL APPEAL, with district court docket, on behalf of Appellant Elizabeth Harding Weinstein,
FILED. [3090387] [21-1099] [Entered: 04/30/2021 10:15 AM]
DISTRICT COURT ORDER, dated 04/06/2021, RECEIVED.[3090404] [21-1099] [Entered: 04/30/2021
10:19 AM]
DISTRICT COURT ORDER, dated 04/22/2021, RECEIVED.[3090408] [21-1099] [Entered: 04/30/2021
10:20 AM]
ELECTRONIC INDEX, in lieu of record, FILED.[3090411] [21-1099] [Entered: 04/30/2021 10:20 AM]

7 pg, 269.74 KB

04/30/2021

□ A.
1 pg, 77.74 KB

04/30/2021

□A
1 pg, 77.76 KB

04/30/2021

□ 7_
1 pg, 80.39 KB

04/30/2021
04/30/2021

INSTRUCTIONAL FORMS, to Pro Se Appellees, SENT.[3090428] [21-1099] [Entered: 04/30/2021 10:30
AM]
NOTICE, to Appellees Briarcliff Police Department and Village of Briarcliff Manor, regarding a corporation
proceeding Pro Se, and requesting a response 30 days from the date of this letter, copy to pro se appellant
and appellees, SENT.[3090440] [21-1099] [Entered: 04/30/2021 10:34 AM]

□ 8

PAYMENT OF DOCKETING FEE, on behalf of Appellant Elizabeth Harding Weinstein, district court receipt
# ANYSDC-24476702, FILED.[3090785] [21-1099] [Entered: 04/30/2021 02:36 PM]

□ J1

NOTICE OF CIVIL APPEAL, with district court docket, on behalf of Appellant Elizabeth Harding Weinstein,
FILED. [3091527] [21-1127] [Entered: 05/03/2021 10:58 AM]

9 pg, 233.32 KB

04/30/2021

INSTRUCTIONAL FORMS, to Pro Se Appellant, SENT.[3090426] [21-1099] [Entered: 04/30/2021 10:28
AM]

□ J2_

ELECTRONIC INDEX, in lieu of record, FILED.[3091546] [21-1127] [Entered: 05/03/2021 11:04 AM]

7 pg, 273.5 KB

05/03/2021

□ J3_

INSTRUCTIONAL FORMS, to Pro Se Appellant, SENT.[3091553] [21-1127] [Entered: 05/03/2021 11:07 AM]

1 pg, 77.74 KB

05/03/2021

□ J4_
1 pg, 77.76 KB

05/03/2021

□ _15_
1 pg, 80.39 KB

05/03/2021
05/13/2021

05/14/2021

NOTE: See lead case, 21-1099, containing complete set of docket entries.[3091572] [21-1127, 21-1099]
[Entered: 05/03/2021 11:15 AM]

□ 20

ORDER, dated 05/13/2021, dismissing appeal by 06/03/2021, unless Appellant Elizabeth Harding
Weinstein, submits Form D-P, copy to pro se appellant and appellees, FILED.[3100284] [21-1099] [Entered:
05/13/2021 03:18 PM]

□ 21

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee William Bassett, Briarcliff
Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, 21-1127, FILED. Service date 05/14/2021 by CM/ECF. [3100828] [21-1099, 21-1127] [Entered:
05/14/2021 10:45 AM]

□ 22.

DEFECTIVE DOCUMENT, Notice of Appearance as Additional Counsel, [21], on behalf of Appellees
William Bassett, Briarcliff Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard
T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt, Edward E. Midgley, Maria Pascetta, Daniel Pozin,
Steven A. Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M.
Zirman in 21-1099, copy to pro se appellant, FILED.[3100950] [21-1099, 21-1127] [Entered: 05/14/2021
11:54 AM]

2 pg, 109.33 KB

05/14/2021

□ 23.
1 pg, 100.43 KB

05/14/2021

□ _28
13 pg, 852.54 KB

05/17/2021

5 of 8

NOTICE, to Appellees Briarcliff Police Department and Village of Briarcliff Manor, regarding a corporation
proceeding Pro Se, and requesting a response 30 days from the date of this letter, copy to pro se appellants
and appellees, SENT.[3091567] [21-1127] [Entered: 05/03/2021 11:13 AM]

□ 16

2 pg, 110.66 KB

05/14/2021

INSTRUCTIONAL FORMS, to Pro Se Appellees, SENT.[3091559] [21-1127] [Entered: 05/03/2021 11:10
AM]

□ 24

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee William Bassett, Briarcliff
Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, 21-1127, FILED. Service date 05/14/2021 by CM/ECF. [3101353] [21-1099, 21-1127] [Entered:
05/14/2021 03:40 PM]
LETTER, dated 04/26/2021, on behalf of Appellant Elizabeth Harding Weinstein in 21-1099, 21-1127,
informing the Court to address due process violations, RECEIVED. Service date 04/26/2021 by US
mail.[3103881] [21-1099, 21-1127] [Entered: 05/19/2021 01:15 PM]
ATTORNEY, Lewis R. Silverman for Peter E. Chatzky Kevin Hunt Maria Pascetta Briarcliff Police
Department Cody Wilkinson Gregory Campus Thomas Nacke Donald Gorey Philip E. Zegarelli Edward E.
Midgley Howard T. Code Daniel Pozin Village of Briarcliff Manor Steven A. Vescio Dominick Bueti Fred
Galbraith Sabine Werner William Bassett Rori M. Zirman, in case 21-1127 Lewis R. Silverman for Peter E.

7/8/2021,9:32 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TranspoitRoom

21-1099 Docket

Chatzky Kevin Hunt Maria Pascetta Briarcliff Police Department Cody Wilkinson Gregory Campus Thomas
Nacke Donald Gorey Philip E. Zegarelli Edward E. Midgley Howard T. Code Daniel Pozin Village of Briarcliff
Manor Steven A. Vescio Dominick Bueti Fred Galbraith Sabine Werner William Bassett Rori M. Zirman, in
case 21-1099, [23], ADDED.[3101620] [21-1099, 21-1127] [Entered: 05/17/2021 08:23 AM]
05/17/2021

□ 25

CURED DEFECTIVE DOCUMENT: NOTICE OF APPEARANCE FOR ADDITIONAL COUNSEL, [22], [23],
on behalf of Appellees William Bassett, Briarcliff Police Department, Dominick Bueti, Gregory Campus,
Peter E. Chatzky, Howard T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas
Nacke, Maria Pascetta, Daniel Pozin, Steven A. Vescio, Village of Briarcliff Manor, Sabine Werner, Cody
Wilkinson, Philip E. Zegarelli and Rori M. Zirman in 21-1099, 21-1127, FILED.[3101635] [21-1099, 21-1127]
[Entered: 05/17/2021 08:40 AM]

05/17/2021

□ 26

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee William Bassett, Dominick
Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt,
Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A. Vescio, Sabine Werner, Cody
Wilkinson, Philip E. Zegarelli and Rori M. Zirman in 21-1099, 21-1127, FILED. Service date 05/17/2021 by
CM/ECF. [3101965] [21-1099, 21-1127] [Entered: 05/17/2021 11:32 AM]

□ 27_

DEFECTIVE DOCUMENT, Notice of Appearance for Additional Counsel, [26], on behalf of Appellees
William Bassett, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in 21-1099, 21-1127, copy to
pro se appellant, FILED.[3103512] [21-1099, 21-1127] [Entered: 05/19/2021 09:39 AM]

05/19/2021

2 pg, 124.36 KB

05/28/2021

06/02/2021

□ 29

NOTICE OF APPEARANCE AS SUBSTITUTE COUNSEL, on behalf of Appellee David Lauscher, Joyce
Miller and Fred Green in 21-1127, 21-1099, FILED. Service date 05/28/2021 by US mail. [3110185]
[21-1127, 21-1099] [Entered: 05/28/2021 11:39 AM]

□ _30_

DEFECTIVE DOCUMENT, Notice of Appearance for Substitute Counsel, [29], on behalf of Appellees Fred
Green, David Lauscher and Joyce Miller in 21-1099, 21-1127, copy to pro se appellant, FILED.[3112284]
[21-1099, 21-1127] [Entered: 06/02/2021 11:03 AM]

2 pg, 108.25 KB

06/02/2021

06/08/2021

□ 32

NOTICE OF APPEARANCE AS SUBSTITUTE COUNSEL, on behalf of Appellee Fred Green, David
Lauscher and Joyce Miller in 21-1127, 21-1099, FILED. Service date 05/28/2021 by US mail. [3112458]
[21-1127, 21-1099] [Entered: 06/02/2021 01:08 PM]

□ _35_

ORDER, dated 06/08/2021, dismissing appeal by 06/29/2021, unless Appellant Elizabeth Harding
Weinstein, submits Acknowledgment and Notice of Appearance, copy to pro se appellant, FILED.[3116052]
[21-1127] [Entered: 06/08/2021 02:34 PM]

2 pg, 110.07 KB

06/08/2021

□ _36_
2 pg, 110.95 KB

06/08/2021

□ _3Z_
2 pg, 408.27 KB

06/08/2021

□ _38_
1 pg, 38.91 KB

06/08/2021

□ J39_
2 pg, 109.87 KB

NOTICE OF APPEARANCE AS SUBSTITUTE COUNSEL, on behalf of Appellee Fred Green, David
Lauscher and Joyce Miller in 21-1127, 21-1099, FILED. Service date 06/08/2021 by US mail. [3116104]
[21-1127, 21-1099] [Entered: 06/08/2021 03:13 PM]
CERTIFICATE OF SERVICE, for Notice of Appearance, on behalf of Appellee William Bassett, Briarcliff
Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, 21-1127, FILED. Service date 06/08/2021 by CM/ECF, US mail.[3116111] [21-1099, 21-1127]
[Entered: 06/08/2021 03:21 PM]
ORDER, dated 06/08/2021, dismissing appeal by 06/29/2021, unless Appellant Elizabeth Harding
Weinstein, submits Acknowlegdment and Notice of Appearance, copy to pro se appellant, FILED.[3116215]
[21-1099] [Entered: 06/08/2021 04:20 PM]

06/08/2021

□ 40

ATTORNEY, David H. Chen, [37], in place of attorney John Joseph Carmody, SUBSTITUTED.[3116234]
[21-1099] [Entered: 06/08/2021 04:37 PM]

06/08/2021

D 41

ATTORNEY, David H. Chen, [3Z], in place of attorney John Joseph Carmody, SUBSTITUTED.[3116235]
[21-1127] [Entered: 06/08/2021 04:39 PM]

06/08/2021

□ 42

CURED DEFECTIVE DOCUMENT: NOTICE OF APPEARANCE FOR SUBSTITUTE COUNSEL, [30], [37],
on behalf of Appellees Fred Green, David Lauscher and Joyce Miller, FILED.[3116238] [21-1099] [Entered:
06/08/2021 04:43 PM]

□ .43.

DEFECTIVE DOCUMENT, Notice of Appearance for Substitute Counsel, [32], on behalf of Appellees Fred
Green, David Lauscher and Joyce Miller, copy to pro se appellant, FILED.[3116258] [21-1127] [Entered:
06/08/2021 04:54 PM]

06/08/2021

2 pg, 107.85 KB

6 of 8

ORDER, dated 06/08/2021, dismissing appeal by 06/29/2021, unless Appellant Elizabeth Harding
Weinstein, submits Form D-P, copy to pro se appellant, FILED.[3116072] [21-1127] [Entered: 06/08/2021
02:45 PM]

7/8/2021,9:32 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1099 Docket

06/08/2021

06/24/2021

□ 44

CURED DEFECTIVE DOCUMENT: NOTICE OF APPEARANCE FOR SUBSTITUTE COUNSEL, [30], [43],
[37]. on behalf of Appellees Fred Green, David Lauscherand Joyce Miller, FILED.[3116274] [21-1127]
[Entered: 06/08/2021 05:02 PM]

□ _49_

UNDELIVERABLE MAIL, to USCAfrom USPS, on behalf of the Appellant Marie Vitale, RECEIVED.
[3127336] [21-1099, 21-1127] [Entered: 06/28/2021 11:58 AM]

10 pg, 540.6 KB

06/28/2021

□ _5Q_
1 pg, 79.16 KB

06/28/2021

□ _51_
1 pg, 79.16 KB

06/29/2021

□ _M.
2 pg, 108.59 KB

07/08/2021

□ _5L

NOTICE, to Appellee Brian Stryker Weinstein in 21-1099, 21-1127, for failure to file an appearance, copy to
pro se appellant and appellee, SENT.[3127354] [21-1099, 21-1127] [Entered: 06/28/2021 12:04 PM]
NOTICE, to Appellee Marie Vitale in 21-1099, 21-1127, for failure to file an appearance, copy to pro se
appellant and appellee, SENT.[3127364] [21-1099, 21-1127] [Entered: 06/28/2021 12:07 PM]
STRIKE ORDER, striking Appellees William Bassett, Dominick Bueti, Gregory Campus, Peter E. Chatzky,
Howard T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria
Pascetta, Daniel Pozin, Steven A. Vescio, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M.
Zirman, Notice of Appearance as Additional Counsel, [26], from the docket, copy to pro se appellant and
appellee, FILED.[3128984] [21-1099, 21-1127] [Entered: 06/29/2021 04:06 PM]
NEW CASE MANAGER, Yana Segal, ASSIGNED.[3133447] [21-1099] [Entered: 07/08/2021 08:51 AM]

1 pg, 88.76 KB

07/08/2021

7 of 8

□ 58

ORDER, [20] appeal dismissed for Appellant Elizabeth Harding Weinstein failure to file form D-P,
EFFECTIVE. [3133481] [21-1099] [Entered: 07/08/2021 09:08 AM]

7/8/2021,9:32 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1099 Docket

Clear All
® Documents and Docket Summary
O Documents Only
0 Include Page Numbers
Selected Pages: |0

Selected Size: 0 KB

1 View Selected ;

PACER Service Center
Transaction Receipt
07/08/2021 09:31:53
PACER Login:

us4856

Client Code:

Description:

|Pocket Report (full)

Search Criteria:

Billable Pages:[5
Exempt Flag:

8 of 8

| Exempt

1121-1099

Cost:

0.50

Exempt Reason:

j Always

|

7/8/2021, 9:32 AM

Case 7:21-cv-01996-CS Document 9 Filed 04/06/21 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■x

ELIZABETH HARDING WEINSTEIN,
Plaintiff,

ORDER

- against -

No. 21-CV-1996 (CS)

VILLAGE OF BRIARCLIFF MANOR, et al.,
Defendants.
■x

Seibel J.
WHEREAS Plaintiff has raised the issue of her competency in this matter by, among
other things, challenging a commitment order allegedly issued by Village Justice Howard T.
Code on March 9, 2021, (see Doc. 5);
WHEREAS the Court finds it appropriate given the circumstances to conduct an inquiry
into Plaintiffs competency and whether it would be appropriate to appoint a guardian ad litem
pursuant to Federal Rule of Civil Procedure 17(c), see Lewis v. Newburgh Hous. Auth, 692 F.
App’x 673, 674-75 (2d Cir. 2017) (summary order), as amended (July 6, 2017), or take other
appropriate measures; and
WHEREAS the records relating to the alleged commitment order are not publicly
accessible to the Court, and in the interest of judicial economy,
IT IS HEREBY ORDERED that the Village of Briarcliff Clerk of Court shall, no later
than April 20, 2021, submit to the Court any and all records relating to Plaintiff s competency,
including any evaluations and rulings, along with a letter explaining which records, if any, are
public; and it is further

Case 7:21-cv-01996-CS Document 9 Filed 04/06/21 Page 2 of 2

ORDERED that Plaintiff may also, no later than April 20, 2021, supply any records
relating to competency that she wishes the Court to consider, along with a letter explaining
which records, if any, are public, as well as suggestions for who might be willing to serve as her
guardian ad litem should she be found to be incompetent.
The parties shall make their submissions directly to my chambers.
The Court will serve this Order on Plaintiff via ECF and on the Village of Briarcliff Clerk
of Court through Lewis Silverman, Esq., who has indicated that he is authorized to accept
service.
SO ORDERED.
Dated: April 6, 2021
White Plains, New York
CATHY SBIBEL, U.S.D.J.

2

Case 7:21-cv-01996-CS Document 12 Filed 04/22/21 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■x

ELIZABETH HARDING WEINSTEIN,
Plaintiff,

ORDER

- against -

No. 21-CV-1996 (CS)

VILLAGE OF BRIARCLIFF MANOR, et al.,
Defendants.
x

Seibel. J.
WHEREAS Plaintiff Elizabeth Harding Weinstein’s submissions in this matter have
raised the issue of her competency by, among other things, challenging a commitment order
allegedly issued by Village Justice Howard T. Code on March 9, 2021, {see Doc. 5), and her
alleged involuntary commitment at St. Vincent’s Hospital Westchester from March 9, 2021 to
April 2, 2021, {see id.; Doc. 6; Doc. 10 ^ 33-38, 50);
WHEREAS the Court finds it appropriate given the circumstances to conduct an inquiry
into Plaintiffs competency and whether it would be appropriate to appoint a guardian ad litem
pursuant to Federal Rule of Civil Procedure 17(c), see Lewis v. Newburgh Hous. Auth, 692 F.
App’x 673, 674-75 (2d Cir. 2017) (summary order), as amended (July 6, 2017), or take other
appropriate measures; and
WHEREAS the Court finds that Plaintiffs mental health records from her alleged
involuntary commitment at St. Vincent’s Hospital Westchester are needed to aid in the Court’s
required determination of Plaintiff s competency, and therefore “the interests of justice
significantly outweigh the need for confidentiality,” N.Y. Mental Hyg. Law § 33.13(c)(1); and

Case 7:21-cv-01996-CS Document 12 Filed 04/22/21 Page 2 of 2

WHEREAS a health care provider may disclose protected health information in the
course of a judicial proceeding in response to a court order, see 45 C.F.R. 164.512(e)(l)(i); and
WHEREAS to the extent that the Court seeks these documents for in camera review,
their confidentiality shall be maintained,
IT IS HEREBY ORDERED that St. Vincent’s Hospital Westchester shall, no later than
April 29, 2021, submit to the Court for in camera review any and all mental health records
relating to Plaintiff Elizabeth Harding Weinstein dated March 9, 2021 to the present.
The records shall be delivered directly to my chambers via mail, fax, or personal delivery
at the Hon. Charles L. Brieant Jr. Federal Building and U.S. Courthouse, 300 Quarropas Street,
White Plains, New York 10601.
SO ORDERED.
Dated: April 22, 2021
White Plains, New York
CATHY SEIBEL, U.S.D.J.

2

Case 21-1127, Document 25, 06/08/2021, 3116052, Pagel of 2

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 8th day of June, two thousand and twenty-one,

Elizabeth Harding Weinstein,
Plaintiff - Appellant,
v.

Village of Briarcliff Manor, Briarcliff Police
Department, Justice Howard T. Code, Personally & in
his Official capacity as Justice of the Briarcliff Village
Court, Rori M. Zirman, Personally & in her Official
Capacity as Court Clerk, Philip E. Zegarelli, Personally
& in his Official Capacity as Village Manager, PO Cody
Wilkinson, Personally & in his Official Capacity as a
Police Officer, Lt. Dominick Bueti, Personally & in his
Official Capacity as a Police Officer, Sgt. Thomas
Nacke, Personally & in his Official Capacity as a Police
Officer, Det. Fred Galbraith, Personally & in his Official
Capacity as a Police Officer, Former Chief Donald
Gorey, Personally & in his Official Capacity as a Police
Officer, PO Gregory Campus, Personally & in his
Official Capacity as a Police Officer, Sgt. William
Bassett, Personally & in his Official Capacity as a Police
Officer, Maria Pascetta, Personally & in her Official
Capacity as Secretary to Village Manager, Mayor Steven
A. Vescio, Personally and in his Official Capacity as
Mayor of the Village of Briarcliff Manor, Edward E.
Midgley, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES, Peter E. Chatzky,
Personally and in his Official Capacity as member of
BOARD OF TRUSTEES, Kevin Hunt, Personally and in
his Official Capacity as member of BOARD OF
TRUSTEES, Sabine Werner, Personally and in his
Official Capacity as member of BOARD OF
TRUSTEES, Brian Stryker Weinstein, Marie Vitale,
Personally and her Official Capacity as a Court

ORDER
Docket Number: 21-1127CON

Case 21 -1127, Document 25, 06/08/2021,3116052, Page2 of 2

Appointed Attorney, Daniel Pozin, Personally and his
Official Capacity as Attorney for Briarcliff Manor, David
Lauscher, Personally and in his Official Capacity as
Assistant District Attorney, Joyce Miller, Personally and
in her Official Capacity as Assistant District Attorney,
Fred Green, Personally and in her Official Capacity as
Assistant District Attorney,
Defendants - Appellees,
John Doe 1-10,
Defendants.

A notice of appeal was filed on April 26, 2021. The Appellant’s Acknowledgment and
Notice of Appearance Form due May 17, 2021 has not been filed. The case is deemed in default
of FRAP 12(b), and LR 12.3.
IT IS HEREBY ORDERED that the appeal will be dismissed effective June 29, 2021 if
the Acknowledgment and Notice of Appearance Form is not filed by that date.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

Case 21-1127, Documents, 06/29/2021, 3128984, Pagel of2

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 29th day of June, two thousand and twenty-one,

Elizabeth Harding Weinstein,
Plaintiff - Appellant,
v.

Village of Briarcliff Manor, Briarcliff Police
Department, Justice Howard T. Code, Personally & in
his Official capacity as Justice of the Briarcliff Village
Court, Rori M. Zirman, Personally & in her Official
Capacity as Court Clerk, Philip E. Zegarelli, Personally
& in his Official Capacity as Village Manager, PO Cody
Wilkinson, Personally & in his Official Capacity as a
Police Officer, Lt. Dominick Bueti, Personally & in his
Official Capacity as a Police Officer, Sgt. Thomas
Nacke, Personally & in his Official Capacity as a Police
Officer, Det. Fred Galbraith, Personally & in his Official
Capacity as a Police Officer, Former Chief Donald
Gorey, Personally & in his Official Capacity as a Police
Officer, PO Gregory Campus, Personally & in his
Official Capacity as a Police Officer, Sgt. William
Bassett, Personally & in his Official Capacity as a Police
Officer, Maria Pascetta, Personally & in her Official
Capacity as Secretary to Village Manager, Mayor Steven
A. Vescio, Personally and in his Official Capacity as
Mayor of the Village of Briarcliff Manor, Edward E.
Midgley, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES, Peter E. Chatzky,
Personally and in his Official Capacity as member of
BOARD OF TRUSTEES, Kevin Hunt, Personally and in
his Official Capacity as member of BOARD OF
TRUSTEES, Sabine Werner, Personally and in his
Official Capacity as member of BOARD OF
TRUSTEES, Brian Stryker Weinstein, Marie Vitale,
Personally and her Official Capacity as a Court

ORDER
Docket No. 21-1099

Case 21-1127, Document 40, 06/29/2021, 3128984, Page2 of 2

Appointed Attorney, Daniel Pozin, Personally and his
Official Capacity as Attorney for Briarcliff Manor, David
Lauscher, Personally and in his Official Capacity as
Assistant District Attorney, Joyce Miller, Personally and
in her Official Capacity as Assistant District Attorney,
Fred Green, Personally and in her Official Capacity as
Assistant District Attorney,
Defendants - Appellees,
John Doe 1-10,
Defendants.

Appellee’s William Bassett, et al., submission of a Notice of Appearance as Additional
Counsel does not comply with the Court's prescribed filing requirements. Despite due notice, the
defect has not been cured.
IT IS HEREBY ORDERED that the said Notice of Appearance as Additional Counsel is
stricken from the docket.
For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

https://ecf.ca2.uscourts.gOV/n/beam/servlet/TransportRoom

21-1127 Docket

PACER fee: Exempt
General Docket
Court of Appeals, 2nd Circuit
Docketed: 04/30/2021

Court of Appeals Docket #: 21-1127
Nature of Suit: 3440 CIVIL RIGHTS-Other
Weinstein v. Village of Briarcliff Manor
Appeal From: SDNY (WHITE PLAINS)
Fee Status: Paid
Case Type Information:
1) Civil
2) Private
3)Originating Court Information:
District: 0208-7 : 21-CV-1996
Trial Judge: Cathy Seibel, U.S. District Judge
Date Filed: 03/08/2021
Date Order/Judgment EOD:
Date Order/Judgment:
03/18/2021
03/17/2021

Date NOA Filed:
04/29/2021

Date Rec'd COA:
04/30/2021

Prior Cases:
None
Current Cases:
None
Panel Assignment:

Not available

Elizabeth Harding Weinstein
Plaintiff - Appellant

Elizabeth Harding Weinstein, Direct: 646-261-7685
[NTC Pro Se]
180 River Road
Briarcliff Manor, NY 10510

Village of Briarcliff Manor
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
Silverman & Associates
#1102
445 Hamilton Avenue
White Plains, NY 10601
Village of Briarcliff Manor, Direct: 914-941-4800
[NTC -]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

Briarcliff Police Department
Defendant - Appellee

Briarcliff Police Department, Direct: 914-941-2130
[NTC -]
Police Department
Briarcliff Manor Village Hall
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Justice Howard T. Code, Personally & in his Official capacity as
Justice of the Briarcliff Village Court
Defendant - Appellee

1 of 8

Howard T. Code, Direct: 914-944-2788
[NTC Pro Se]
1111 Pleasantville Road

7/8/2021,9:34 AM

21-1127 Docket

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TranspprtRoom

Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)
Rori M. Zirman, Personally & in her Official Capacity as Court Clerk Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
Defendant - Appellee
[COR NTC Retained]
(see above)
Rori M. Zirman, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Philip E. Zegarelli, Personally & in his Official Capacity as Village
Manager
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)
Philip E. Zegarelli, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

PO Cody Wilkinson, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)
Cody Wilkinson, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

Lt. Dominick Bueti, Personally & in his Official Capacity as a Police
Officer
Defendant - Appellee

Dominick Bueti, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Sgt. Thomas Nacke, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Thomas Nacke, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Det. Fred Galbraith, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Fred Galbraith, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

2 of 8

7/8/2021,9:34 AM

21-1127 Docket

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

Former Chief Donald Gorey, Personally & in his Official Capacity as Donald Gorey, [NTC Pro Se]
a Police Officer
1111 Pleasantville Road
Defendant - Appellee
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)
PO Gregory Campus, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

Gregory Campus, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Sgt. William Bassett, Personally & in his Official Capacity as a
Police Officer
Defendant - Appellee

William Bassett, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Maria Pascetta, Personally & in her Official Capacity as Secretary
to Village Manager
Defendant - Appellee

Maria Pascetta, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Mayor Steven A. Vescio, Personally and in his Official Capacity as
Mayor of the Village of Briarcliff Manor
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)
Steven A. Vescio, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

Edward E. Midgley, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES
Defendant - Appellee

Edward E. Midgley, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Peter E. Chatzky, Personally and in his Official Capacity as
member of BOARD OF TRUSTEES
Defendant - Appellee

Peter E. Chatzky, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

3 of 8

7/8/2021,9:34 AM

21-1127 Docket

Kevin Hunt, Personally and in his Official Capacity as member of
BOARD OF TRUSTEES
Defendant - Appellee

https://ecf.ca2.uscourts.gov/ri/beam/servlet/TransportRoom

Kevin Hunt, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

Sabine Werner, Personally and in his Official Capacity as member
of BOARD OF TRUSTEES
Defendant - Appellee

Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)
Sabine Werner, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

Brian Stryker Weinstein
Defendant - Appellee

Brian S. Weinstein, Direct: 212-450-4972
[COR NTC Attorney, Pro se]
Davis Polk & Wardwell LLP
New York
2844
450 Lexington Avenue
New York
New York, NY 10017

Marie Vitale, Personally and her Official Capacity as a Court
Appointed Attorney
Defendant - Appellee

Marie Vitale, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510

Daniel Pozin, Personally and his Official Capacity as Attorney for
Briarcliff Manor
Defendant - Appellee

Daniel Pozin, [NTC Pro Se]
1111 Pleasantville Road
Briarcliff Manor, NY 10510
Lewis R. Silverman, Senior Attorney
Direct: 914-574-4510
[COR NTC Retained]
(see above)

David Lauscher, Personally and in his Official Capacity as Assistant David H. Chen, Esq., Direct: 914-995-3616
District Attorney
[COR LD NTC Government]
Defendant - Appellee
Westchester County Attorney's Office
Suite 602
600 Michaelian Office Building
148 Martine Avenue
White Plains, NY 10601
Joyce Miller, Personally and in her Official Capacity as Assistant
District Attorney
Defendant - Appellee

David H. Chen, Esq., Direct: 914-995-3616
[COR LD NTC Government]
(see above)

Fred Green, Personally and in her Official Capacity as Assistant
District Attorney
Defendant - Appellee

David H. Chen, Esq., Direct: 914-995-3616
[COR LD NTC Government]
(see above)

John Doe 1-10
Defendant

4 of 8

7/8/2021,9:34 AM

21-1127 Docket

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

FOR THE OFFICIAL CAPTION AND A COMPLETE SET OF ATTORNEY LISTINGS, PLEASE SEE THE LEAD DOCKET NUMBER:
21-1099.

5 of 8

7/8/2021,9:34 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1127 Docket

04/30/2021

O A
9pg, 233.32 kb

04/30/2021

□ _2
9 pg, 65.52 KB

04/30/2021
04/30/2021

NOTICE OF CIVIL APPEAL, with district court docket, on behalf of Appellant Elizabeth Harding Weinstein,
filed. [3091527] [21-1127] [Entered: 05/03/2021 10:58 AM]
DISTRICT COURT ORDER, dated 03/17/2021, RECEIVED.[3091535] [21-1127] [Entered: 05/03/2021
11:01AM]

□ 3

PAYMENT OF DOCKETING FEE, on behalf of Appellant Elizabeth Harding Weinstein, district court receipt
# ANYSDC-24476729, FILED.[3091539] [21-1127] [Entered: 05/03/2021 11:02 AM]

□ _4

ELECTRONIC INDEX, in lieu of record, FILED.[3091546] [21-1127] [Entered: 05/03/2021 11:04 AM]

7 pg, 273.5 KB

05/03/2021

□ _5_

INSTRUCTIONAL FORMS, to Pro Se Appellant, SENT.[3091553] [21-1127] [Entered: 05/03/2021 11:07 AM]

1 pg, 77.74 KB

05/03/2021
05/03/2021

□ _6

INSTRUCTIONAL FORMS, to Pro Se Appellees, SENT.[3091559] [21-1127] [Entered: 05/03/2021 11:10

1 pg, 77.76 KB

AM]

□ J_

NOTICE, to Appellees Briarcliff Police Department and Village of Briarcliff Manor, regarding a corporation
proceeding Pro Se, and requesting a response 30 days from the date of this letter, copy to pro se appellants
and appellees, SENT.[3091567] [21-1127] [Entered: 05/03/2021 11:13 AM]

1 pg, 80.39 KB

05/03/2021

□ 8

NOTE: See lead case, 21-1099, containing complete set of docket entries.[3091572] [21-1127, 21-1099]
[Entered: 05/03/2021 11:15 AM]

05/14/2021

□ 11

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee William Bassett, Briarcliff
Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, 21-1127, FILED. Service date 05/14/2021 by CM/ECF. [3100828] [21-1099, 21-1127] [Entered:
05/14/2021 10:45 AM]

05/14/2021

□ J2
2 pg, 109.33 KB

DEFECTIVE DOCUMENT, Notice of Appearance as Additional Counsel, [11], on behalf of Appellees William
Bassett, Briarcliff Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code,
Fred Galbraith, Donald Gorey, Kevin Hunt, Edward E. Midgley, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, copy to pro se appellant, FILED.[3100950] [21-1099, 21-1127] [Entered: 05/14/2021 11:54 AM]

□ JL3

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee William Bassett, Briarcliff
Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, 21-1127, FILED. Service date 05/14/2021 by CM/ECF. [3101353] [21-1099, 21-1127] [Entered:
05/14/2021 03:40 PM]

05/14/2021

1 pg, 100.43 kb

05/14/2021

LETTER, dated 04/26/2021, on behalf of Appellant Elizabeth Harding Weinstein in 21-1099, 21-1127,
□ 18
13 pg, 852.54 kb informing the Court to address due process violations, RECEIVED. Service date 04/26/2021 by US
mail.[3103881] [21-1099, 21-1127] [Entered: 05/19/2021 01:15 PM]

05/17/2021

□ 14

ATTORNEY, Lewis R. Silverman for Peter E. Chatzky Kevin Hunt Maria Pascetta Briarcliff Police
Department Cody Wilkinson Gregory Campus Thomas Nacke Donald Gorey Philip E. Zegarelli Edward E.
Midgley Howard T. Code Daniel Pozin Village of Briarcliff Manor Steven A. Vescio Dominick Bueti Fred
Galbraith Sabine Werner William Bassett Rori M. Zirman, in case 21-1127 Lewis R. Silverman for Peter E.
Chatzky Kevin Hunt Maria Pascetta Briarcliff Police Department Cody Wilkinson Gregory Campus Thomas
Nacke Donald Gorey Philip E. Zegarelli Edward E. Midgley Howard T. Code Daniel Pozin Village of Briarcliff
Manor Steven A. Vescio Dominick Bueti Fred Galbraith Sabine Werner William Bassett Rori M. Zirman, in
case 21-1099, [13], ADDED.[3101620] [21-1099, 21-1127] [Entered: 05/17/2021 08:23 AM]

05/17/2021

□ 15

CURED DEFECTIVE DOCUMENT: NOTICE OF APPEARANCE FOR ADDITIONAL COUNSEL, [12], [13],
on behalf of Appellees William Bassett, Briarcliff Police Department, Dominick Bueti, Gregory Campus,
Peter E. Chatzky, Howard T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas
Nacke, Maria Pascetta, Daniel Pozin, Steven A. Vescio, Village of Briarcliff Manor, Sabine Werner, Cody
Wilkinson, Philip E. Zegarelli and Rori M. Zirman in 21-1099, 21-1127, FILED.[3101635] [21-1099, 21-1127]
[Entered: 05/17/2021 08:40 AM]

05/17/2021

□ 16

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee William Bassett, Dominick
Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt,
Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A. Vescio, Sabine Werner, Cody
Wilkinson, Philip E. Zegarelli and Rori M. Zirman in 21-1099, 21-1127, FILED. Service date 05/17/2021 by
CM/ECF. [3101965] [21-1099, 21-1127] [Entered: 05/17/2021 11:32 AM]

□ 17

DEFECTIVE DOCUMENT, Notice of Appearance for Additional Counsel, [16], on behalf of Appellees
william Bassett, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in 21-1099, 21-1127, copy to

05/19/2021

2 pg, 124.36 KB

6 of 8

7/8/2021,9:34 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1127 Docket

pro se appellant, FILED.[3103512] [21-1099, 21-1127] [Entered: 05/19/2021 09:39 AM]

05/28/2021 □ 19

NOTICE OF APPEARANCE AS SUBSTITUTE COUNSEL, on behalf of Appellee David Lauscher, Joyce
Miller and Fred Green in 21-1127, 21-1099, FILED. Service date 05/28/2021 by US mail. [3110185]
[21-1127, 21-1099] [Entered: 05/28/2021 11:39 AM]

06/02/2021 □ _20

DEFECTIVE DOCUMENT, Notice of Appearance for Substitute Counsel, [19], on behalf of Appellees Fred
Green, David Lauscher and Joyce Miller in 21-1099, 21-1127, copy to pro se appellant, FILED.[3112284]
[21-1099, 21-1127] [Entered: 06/02/2021 11:03 AM]

2 P9,108.25 KB

06/02/2021

06/08/2021

□ 22

NOTICE OF APPEARANCE AS SUBSTITUTE COUNSEL, on behalf of Appellee Fred Green, David
Lauscher and Joyce Miller in 21-1127, 21-1099, FILED. Service date 05/28/2021 by US mail. [3112458]
[21-1127, 21-1099] [Entered: 06/02/2021 01:08 PM]

□ 25

ORDER, dated 06/08/2021, dismissing appeal by 06/29/2021, unless Appellant Elizabeth Harding
Weinstein, submits Acknowledgment and Notice of Appearance, copy to pro se appellant, FILED.[3116052]
[21-1127] [Entered: 06/08/2021 02:34 PM]

2pg, 110.07 KB

06/08/2021

□ _26
2pg, 110.95KB

06/08/2021

□ 2L
2pg,408.27kb

06/08/2021

□ _28_
1 pg, 38.91 KB

ORDER, dated 06/08/2021, dismissing appeal by 06/29/2021, unless Appellant Elizabeth Harding
Weinstein, submits Form D-P, copy to pro se appellant, FILED.[3116072] [21-1127] [Entered: 06/08/2021
02:45 PM]
NOTICE OF APPEARANCE AS SUBSTITUTE COUNSEL, on behalf of Appellee Fred Green, David
Lauscher and Joyce Miller in 21-1127, 21-1099, FILED. Service date 06/08/2021 by US mail. [3116104]
[21-1127, 21-1099] [Entered: 06/08/2021 03:13 PM]
CERTIFICATE OF SERVICE, for Notice of Appearance, on behalf of Appellee William Bassett, Briarcliff
Police Department, Dominick Bueti, Gregory Campus, Peter E. Chatzky, Howard T. Code, Fred Galbraith,
Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria Pascetta, Daniel Pozin, Steven A.
Vescio, Village of Briarcliff Manor, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M. Zirman in
21-1099, 21-1127, FILED. Service date 06/08/2021 by CM/ECF, US mail.[3116111 ] [21-1099, 21-1127]
[Entered: 06/08/2021 03:21 PM]

06/08/2021

□ 29

ATTORNEY, David H. Chen, [2Z], in place of attorney John Joseph Carmody, SUBSTITUTED.[3116235]
[21-1127] [Entered: 06/08/2021 04:39 PM]

06/08/2021

□ JO
2 pg, 107.85 kb

DEFECTIVE DOCUMENT, Notice of Appearance for Substitute Counsel, [22], on behalf of Appellees Fred
Green, David Lauscher and Joyce Miller, copy to pro se appellant, FILED.[3116258] [21-1127] [Entered:
06/08/2021 04:54 PM]

06/08/2021 □ 31

CURED DEFECTIVE DOCUMENT: NOTICE OF APPEARANCE FOR SUBSTITUTE COUNSEL, [20], [30],
[27], on behalf of Appellees Fred Green, David Lauscher and Joyce Miller, FILED.[3116274] [21-1127]
[Entered: 06/08/2021 05:02 PM]

06/09/2021

□ J2.
2 pg, 393.52 kb

ACKNOWLEDGMENT AND NOTICE OF APPEARANCE, on behalf of Appellee Fred Green, David
Lauscher and Joyce Miller, FILED. Service date 06/09/2021 by US mail.[3116608] [21-1127] [Entered:
06/09/2021 11:30 AM]

06/24/2021

□ J6_
I0pg,540.6KB

UNDELIVERABLE MAIL, to USCAfrom USPS, on behalf of the Appellant Marie Vitale, RECEIVED.
[3127336] [21-1099, 21-1127] [Entered: 06/28/2021 11:58 AM]

06/28/2021 □ 37
1 pg, 79.16 KB

06/28/2021 □ 38
1 pg, 79.16 KB

06/29/2021

□ 40
2 pg, 108.59 KB

07/08/2021

O _42_

NOTICE, to Appellee Brian Stryker Weinstein in 21-1099, 21-1127, for failure to file an appearance, copy to
pro se appellant and appellee, SENT.[3127354] [21-1099, 21-1127] [Entered: 06/28/2021 12:04 PM]
NOTICE, to Appellee Marie Vitale in 21-1099, 21-1127, for failure to file an appearance, copy to pro se
appellant and appellee, SENT.[3127364] [21-1099, 21-1127] [Entered: 06/28/2021 12:07 PM]
STRIKE ORDER, striking Appellees William Bassett, Dominick Bueti, Gregory Campus, Peter E. Chatzky,
Howard T. Code, Fred Galbraith, Donald Gorey, Kevin Hunt, Edward E. Midgley, Thomas Nacke, Maria
Pascetta, Daniel Pozin, Steven A. Vescio, Sabine Werner, Cody Wilkinson, Philip E. Zegarelli and Rori M.
Zirman, Notice of Appearance as Additional Counsel, [16], from the docket, copy to pro se appellant and
appellee, FILED.[3128984] [21-1099, 21-1127] [Entered: 06/29/2021 04:06 PM]
NEW CASE MANAGER, Yana Segal, ASSIGNED.[3133447] [21-1099] [Entered: 07/08/2021 08:51 AM]

1 pg, 88.76 KB

07/08/2021

7 of 8

□ 43

ORDER, [3100284-2] appeal dismissed for Appellant Elizabeth Harding Weinstein failure to file form D-P,
EFFECTIVE. [3133481] [21-1099] [Entered: 07/08/2021 09:08 AM]

7/8/2021,9:34 AM

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

21-1127 Docket

L

Clear All

]

® Documents and Docket Summary
O Documents Only
El Include Page Numbers
Selected Pages: |0

Selected Size: 0 KB

[_ View Selected

PACER Service Center
Transaction Receipt
07/08/2021 09:34:25
PACER Login:

8 of 8

|us4856

Client Code:

[Description:

j Docket Report (full)

Search Criteria:

1|21-1127

Billable Pages:

j[iT

Cost:

l|0.50

[Exempt Flag:

[[ExempF

|Exempt Reason:

||Always

7/8/2021,9:34 AM

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 1 of 9

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
ELIZABETH HARDING WEINSTEIN,
Plaintiff,

21-CV-1996 (CS)

-againstVILLAGE OF BRIARCLIFF MANOR, et al.,

ORDER

Defendants.
CATHY SEIBEL, United States District Judge:
Plaintiff brings this pro se action, for which the filing fee has been paid, alleging that
Defendants are violating her civil rights.1 Plaintiff seeks money damages and emergency
injunctive relief. For the reasons set forth below, the Court (1) dismisses without prejudice
Plaintiffs claims against Briarcliff Manor Village Court Justice Howard T. Code and Assistant
District Attorneys David Lauscher, Joyce Miller, and Fred Green; (2) declines under the Younger
abstention doctrine to intervene in Plaintiff’s ongoing state-court proceedings; and (3) declines to
issue summonses as to the remaining defendants pending receipt of further information regarding
Plaintiff’s status.

1 Plaintiff names the following parties as defendants: The Village of Briarcliff Manor;
Briarcliff Police Department; Briarcliff Manor Village Justice Howard T. Code; Justice Court
Clerk Rori M. Zirman; Village Manager Philip E. Zegarelli; Village Police Officers Cody
Wilkinson, Gregory Campus; Lt. (or Chief) Dominick Bueti; Sgt. Thomas Nacke; Det. Fred
Galbraith; former Police Chief Donald Gorey; Sgt. William Bassett; Secretary to the Village
Manager Maria Pascetta; Mayor Steven A. Vescio; Village Board of Trustees members Edward
E. Midgley, Peter E. Chatzky, Kevin Hunt, and Sabine Werner; Plaintiff’s court-appointed
attorney Marie Vitale; Briarcliff Manor Attorney Daniel Pozin; Assistant District Attorneys
David Lauscher, Joyce Miller, and Fred Green.

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 2 of 9

STANDARD OF REVIEW
The Court has the authority to dismiss a complaint, even when the plaintiff has paid the
filing fee, if it determines that the action is frivolous, Fitzgerald v. First E. Seventh Tenants
Corp., 221 F.3d 362, 363-64 (2d Cir. 2000) (per curiam) (citing Pillay v. INS, 45 F.3d 14, 16-17
(2d Cir. 1995) (per curiam) (holding that Court of Appeals has inherent authority to dismiss
frivolous appeal)), or that the Court lacks subject matter jurisdiction, Ruhrgas AG v. Marathon
Oil Co., 526 U.S. 574, 583 (1999). An action is frivolous if it “lacks an arguable basis either in
law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989). Moreover, the Court “has the
power to dismiss a complaint sua sponte for failure to state a claim,” Leonhard v. United States,
633 F.2d 599, 609 n. 11 (2d Cir. 1980), so long as the plaintiff is given notice and “an
opportunity to be heard.” Thomas v. Scully, 943 F.2d 259, 260 (2d Cir. 1991) (per curiam); see
also Perez v. Ortiz, 849 F.2d 793, 797 (2d Cir. 1988); Wright & Miller, Federal Practice and
Procedure § 1357, at 301 & n. 3. The Court is obliged, however, to construe pro se pleadings
liberally, Harris v. Mills, 572 F.3d 66, 72 (2d Cir. 2009), and interpret them to raise the
“strongest [claims] that they suggest,” Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 47475 (2d Cir. 2006) (internal quotation marks and citations omitted) (emphasis in original).
BACKGROUND
The following allegations are taken from the complaint. On January 4, 2021, Plaintiff
went to the Clerk’s Office in the Briarcliff Manor Municipal Building to file legal documents in
another matter, but Village officials refused to accept her documents. An altercation ensued and
Village Manager Philip Zegarelli requested that police remove Plaintiff from the premises for her
failure to comply with the mask mandate. (ECF 1, at 10.) Briarcliff Manor Police Chief Bueti,
Sergeant Nacke, and Officer Wilkinson responded, and after Plaintiff refused to comply with
their order to leave, they arrested her for disorderly conduct. Plaintiff alleges that the arrest was
2

Case 7:21-cv-01996-CS Documents Filed 03/17/21 Page 3 of 9

“retaliatory” and effectuated “in the absence of criminal activity with no probable cause.” (Id. at
13.) Plaintiff further alleges that Wilkinson, Bueti, and Nacke used excessive force in arresting
her, including twisting her arms and holding her by the back of her neck while pulling her down
stairs.
Plaintiff was then taken to the police station, where she was “chained to the wall in an
uncomfortable and restraining way.” (Id. at 15.) While Plaintiff was detained at the police station,
Briarcliff Manor Village Court Justice Howard T. Code came to the station and “had private exparte communications” with Wilkinson and Nacke. (Id. at 17.) Plaintiff was arraigned by video
on January 5, 2021, “while in solitary confinement.” (Id. at 19.) At some point, Justice Code
ordered that Plaintiff undergo a psychiatric examination, remanded her “to prison for seven
weeks without cause,” and placed her under suicide watch. (Id. at 20.) At a hearing on January 8,
2021, Plaintiff was released without bail, but when she refused to “comply with competency
exams,” she was sent back to her cell and “held in solitary confinement for another four and half
to six hours.” (Id. at 21.)
Plaintiff asserts that her husband Brian Stryker Weinstein, an attorney who is also named
as a defendant, “has been using his inner workings of the Westchester Judiciary” to have the
judges, police officers, and district attorneys “discredit” Plaintiff in order to “provide a cover for
[her husband’s] nefarious actions, abuse of process, and domestic violence thus far.” (Id. at 20.)
In the complaint, Plaintiff seeks damages and injunctive relief, including recusal of Judge
Code and “[dismissal of arrest charges against Plaintiff.” (Id. at 33.)
On March 9, 2021, Plaintiff filed a document captioned “Motion for Injunctive Relief:
Emergency Access to Court Requested.” (ECF 3.) In the motion, she requests “emergency access
to the Court to be heard on the incredible and egregious constitutional rights violations by

3

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 4 of 9

Defendant JUDGE HOWARD T. CODE for injunctive relief as Defendant JUDGE HOWARD T.
CODE continues to desecrate my constitutional rights and exert further coercive control over my
life.” {Id. at 2) (capitalization in original). Plaintiff states that Justice Code “is attempting to hold
‘competency hearings’ without grounds and without proper notice, to exert control over me and
my ability to properly defend my rights.” {Id. at 3.) In her motion, Plaintiff seeks a “[s]tay on all
[ojrders issued by” Justice Code “as they relate to Plaintiff.” {Id. at 4.)
On March 11, 2021, Plaintiff filed another “Motion for Immediate Injunctive Relief’ in
which she alleges that she is the “victim of severe narcissistic abuse by defendants Brian Stryker
Weinstein, District Attorney David Lauscher, Judge Howard T. Code, and the Briarcliff Manor
Police.”2 (ECF 5, at 1.) Plaintiff writes that she seeks “immediate injunctive relief for an
emergency stay on an unlawful imprisonment and involuntary commitment order issued by
Defendant Judge Howard T. Code on March 9, 2021 in Briarcliff Manor Village Court.” {Id. at 12.) She alleges that she has not seen a copy of Justice Code’s order and maintains that she was
not “allowed an opportunity to be fully heard” or permitted to have counsel present. {Id. at 2.)
Plaintiff asserts that she is “of no threat to [herself] or others, not suicidal or homicidal in any
way,” and that Justice Code “issued the order to discredit, punish and silence an articulate pro se
litigant.” {Id. at 2-3.)
Also on March 11, 2021, the Court received another letter from Plaintiff in which she
repeats her previous allegations and asserts that Justice Code’s involuntary commitment order
was issued in retaliation for Plaintiff’s filing of this federal action. (ECF 6.) Plaintiff also asserts

2 Plaintiffs motion is handwritten and uses irregular capitalization. For readability, the
Court uses standard capitalization when quoting from the motion.
4

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 5 of 9

in her letter that medical staff at the hospital in which she is committed are forcing her to take
medication. Plaintiff reiterates her request to be immediately released from commitment.
DISCUSSION
' A.

Younger abstention
To the extent that Plaintiff seeks to have this Court intervene in any pending state-court

proceedings, the Court must dismiss those claims. In Younger v. Harris, 401 U.S. 37 (1971), the
United States Supreme Court held that a federal court may not enjoin a pending state-court
criminal proceeding in the absence of special circumstances suggesting bad faith, harassment, or
irreparable injury that is both serious and immediate. See Gibson v. Berryhill, 411 U.S. 564, 57374 (1973) (citing Younger, 401 U.S. 37). This doctrine has been extended to civil actions. See
Kaufman v. Kaye, 466 F.3d 83, 86 (2d Cir. 2006); Diamond “D” Const. Corp. v. McGowan, 282
F.3d 191, 198 (2d Cir. 2002) (“Younger generally requires federal courts to abstain from taking
jurisdiction over federal constitutional claims that involve or call into question ongoing state
proceedings.”). Thus, Younger abstention is appropriate in only three categories of state court
proceedings: (1) state criminal prosecutions; (2) civil enforcement proceedings that are “akin to
criminal prosecutions”; and (3) civil proceedings “that implicate a State’s interest in enforcing
the orders and judgments of its courts.” Sprint Commc’n, Inc. v. Jacobs, 571 U.S. 69, 72-73
(2013).
Here, Plaintiff asks the Court to intervene in her ongoing criminal proceedings and
related competency proceedings. Beyond her conclusory assertions of retaliation and conspiracy,
Plaintiff has alleged no specific facts showing bad faith, harassment, or irreparable injury with
respect to her pending state-court criminal proceeding. The Court will therefore not intervene in
Plaintiffs ongoing state-court proceedings and denies her motions for emergency injunctive
relief (ECF 3, 5). Plaintiffs remedy, if the state court erred, lies with the state appellate process.
5

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 6 of 9

B.

Claims against Justice Code
The Court must dismiss Plaintiffs claims against Justice Code. Judges are absolutely

immune from suit for damages for any actions taken within the scope of their judicial
responsibilities. Mireles v. Waco, 502 U.S. 9, 11 (1991). Generally, “acts arising out of, or
related to, individual cases before the judge are considered judicial in nature.” Bliven v. Hunt,
579 F.3d 204, 210 (2d Cir. 2009). “Even allegations of bad faith or malice cannot overcome
judicial immunity.” Id. (citations omitted). This is because “[wjithout insulation from liability,
judges would be subject to harassment and intimidation . . . .” Young v. Selsky, 41 F.3d 47, 51
(2d Cir. 1994). In addition, as amended in 1996, § 1983 provides that “in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a declaratory decree was violated or declaratory relief
was unavailable.” 42 U.S.C. § 1983.
Judicial immunity does not apply when the judge takes action “outside” his judicial
capacity, or when the judge takes action that, although judicial in nature, is taken “in absence of
jurisdiction.” Mireles, 502 U.S. at 9-10; see also Bliven, 579 F.3d at 209-10 (describing actions
that are judicial in nature). But “the scope of [a] judge’s jurisdiction must be construed broadly
where the issue is the immunity of the judge.” Stump v. Sparkman, 435 U.S. 349, 356 (1978).
Plaintiffs claims against Justice Code arise out of the judge’s rulings while presiding
over Plaintiffs state-court proceedings. Such rulings and actions were within the scope of Justice
Code’s judicial capacity and jurisdiction. The Court therefore dismisses Plaintiffs claims against
Justice Code under the doctrine of judicial immunity and as frivolous. See Neitzke, 490 U.S. at
325 (stating that a claim is frivolous if it “lacks and arguable basis either in law or in fact”);
Montero v. Travis, 171 F.3d 757, 760 (2d Cir. 1999) (“A complaint will be dismissed as
‘frivolous’ when ‘it is clear that the defendants are immune from suit.’” (quoting Neitzke, 490
6

Case 7:21-cv-01996-CS Documents Filed 03/17/21 Page 7 of 9

U.S. at 327)); see also Mills v. Fischer, 645 F.3d 176, 177 (2d Cir. 2011) (“Any claim dismissed
on the ground of absolute judicial immunity is ‘frivolous’ for purposes of [the in forma pauperis
statute].”).
C.

Claims against Assistant District Attorneys Lauscher, Miller, and Green.
The Court must also dismiss Plaintiff’s claims against Assistant District Attorneys

Lauscher, Miller, and Green. Prosecutors are immune from civil suits for damages for acts
committed within the scope of their official duties where the challenged activities are not
investigative in nature but, rather, are “intimately associated with the judicial phase of the
criminal process.” Simon v. City ofNew York, 727 F.3d 167, 171 (2d Cir. 2013) (quoting Imbler v.
Pachtman, 424 U.S. 409, 430 (1976)); see also Buckley v. Fitzsimmons, 509 U.S. 259 (1993)
(holding that absolute immunity is analyzed under “functional approach” that “looks to the
nature of the function performed, not the identity of the actor who performed it”). In addition,
prosecutors are absolutely immune from suit for acts that may be administrative obligations but
are “directly connected with the conduct of a trial.” Van de Kamp v. Goldstein, 555 U.S. 335, 344
(2009).
Here, Plaintiff’s claims against Defendants Lauscher, Miller, and Green are based on
actions within the scope of their official duties and associated with the conduct of a trial.
Therefore, these claims are dismissed because they seek monetary relief against a defendant who
is immune from suit and as frivolous. See Collazo v. Pagano, 656 F. 3d 131, 134 (2d Cir. 2011)
(holding that claim against prosecutor is frivolous if it arises from conduct that is “intimately
associated with the judicial phase of the criminal process”).
D.

Plaintiff’s competency and claims against remaining defendants
It appears from Plaintiffs filings that she is undergoing or has undergone a mental

competency examination pursuant to Article 730 of the New York State Criminal Procedure
7

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 8 of 9

Law.3 (See ECF 1, at 20.) But whether Plaintiff has been formally adjudicated incompetent is
unclear at this time. Under Federal Rule of Civil Procedure 17(c)(2), a person who is adjudicated
incompetent and who does not have a duly appointed representative may only sue by a next
friend or guardian ad litem. Courts are generally prohibited from “mak[ing] a merits
determination of claims filed on behalf of a minor or incompetent person who is not properly
represented.” Berrios v. New York City Hous. Auth, 564 F.3d 130, 134 (2d Cir. 2009). In an
abundance of caution, the Court dismisses Plaintiffs claims against Justice Code and AD As
Lauscher, Miller, and Green without prejudice. See id. at 135 (courts should dismiss without
prejudice claims of incompetent persons who appear without a guardian ad litem or counsel).
Because the Court dismisses Plaintiffs claims against Justice Code and ADAs Lauscher, Miller,
and Green without prejudice, and abstains from intervening in Plaintiffs ongoing state-court
proceedings, the Court need not address the issue of Plaintiff s competency at this time.
The Court will consider Plaintiffs claims against the remaining defendants in a
subsequent order, and pending receipt of further information regarding Plaintiffs status. No
summonses will issue at this time.
CONCLUSION
Plaintiff has consented to receive electronic service of Court filings. (ECF 2.)
The Court denies Plaintiffs motions for emergency injunctive relief (ECF 3, 5) under the
Younger abstention doctrine.
The Court dismisses Plaintiffs claims against Justice Code without prejudice under the
doctrine of judicial immunity and as frivolous.

3 Article 730 of the New York Criminal Procedure Law provides that any time the court
is of the opinion that the defendant may be an incapacitated person, the court must order a
psychiatric examination. See N.Y. Crim. Pro. L. § 730.30.
8

Case 7:21-cv-01996-CS Document 8 Filed 03/17/21 Page 9 of 9

The Court also dismisses Plaintiffs claims against Assistant District Attorneys Lauscher,
Miller, and Green without prejudice under the doctrine of prosecutorial immunity and as
frivolous.
Plaintiffs claims against the remaining defendants will be addressed in a subsequent
order. No summonses shall issue at this time.
The Court certifies under 28 U.S.C. § 1915(a)(3) that any appeal from this order would
not be taken in good faith, and therefore in forma pauperis status is denied for the purpose of an
appeal. See Coppedge v. United States, 369 U.S. 438, 444-45 (1962).
SO ORDERED.
Dated:

March 17, 2021
White Plains, New York
United States District Judge

9

Additional material
from this filing is
available in the
Clerk's Office.

